             OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       ADMINISTRATIVE COSTS
          CLAIMED BY THE
         GEORGIA DISABILITY
       ADJUDICATION SERVICES


  February 2004      A-15-01-11021




AUDIT REPORT
                                    Mission


We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM
Date:   February 6, 2004                                                   Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed for the Georgia Disability Adjudication
        Services (A-15-01-11021)


        The attached final report presents the results of our audit. Our objectives were to:
        evaluate the Georgia Disability Adjudication Services’ internal controls over the
        accounting and reporting of administrative costs; determine if costs claimed were
        allowable and properly allocated; and reconcile funds drawn down with claimed costs.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your staff
        contact Frederick Nordhoff, Director, Financial Audit Division, at (410) 966-6676.




                                                            S
                                                        Steven L. Schaeffer

        Attachment

        cc:
        Michael Thurmond, Commissioner, Georgia Department of Labor
        Jim Martin, Commissioner, Georgia Department of Human Resources
        Bobby Pack, Director, Disability Adjudication Services
        Lenore R. Carlson, Associate Commissioner for Office of Disability Determinations
        Jeff Hild, Deputy Associate Commissioner for Financial Policy and Operations
        Candace Skurnik, Director, Management Analysis and Audit Program Support Staff




                       SOCIAL SECURITY ADMINISTRATION      BALTIMORE MD 21235-0001
                                                Executive Summary
OBJECTIVES
The objectives of our audit of administrative costs claimed by the Georgia Disability
Adjudication Services (GA-DAS) were to:

•   evaluate internal controls over the accounting and reporting of administrative costs
    claimed, as well as the draw down of Social Security Administration (SSA) funds;

•   determine whether costs claimed on the State Agency Report of Obligations for SSA
    Disability Programs (Form SSA-4513) for the period October 1, 1997 through
    September 30, 2000, were allowable and properly allocated; and

•   determine if the aggregate of the SSA funds drawn down agreed with total
    expenditures for Fiscal Years (FY) 1998 through 2000.

BACKGROUND

Disability determinations under the SSA Disability Insurance and Supplemental Security
Income programs are performed by disability determination services (DDS) in each State
or other responsible jurisdiction, according to Federal regulations. Each DDS is
responsible for determining claimants’ disabilities and assuring that adequate evidence is
available to support its determinations. To make proper disability determinations each
State agency is authorized to purchase consultative medical examinations and medical
evidence of record from the claimants’ physicians or other treating sources. SSA pays
the State agency for 100 percent of allowable expenditures.

RESULTS OF REVIEW
Our audit of administrative costs claimed disclosed that accounting records did not
support the full amount claimed by the GA-DAS. We also determined that the funds
drawn from prior years were used to pay for current years expenditures. We attribute
these deficiencies, for the most part, to inadequacies in accounting controls and
reporting procedures. In addition, consultative examination fees were paid in excess of
the established GA-DAS fee schedules. Starting in the 1990’s, the SSA Atlanta Regional
Office (RO) informally endorsed a method allowing excessive consultative examination
fees to be paid and since then, has never discouraged this practice.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                           i
CONCLUSIONS AND RECOMMENDATIONS
The Georgia Department of Labor (DOL), the GA-DAS’ parent agency, needs to improve
controls to provide adequate accounting, reporting, expending and record-keeping.
Further improvements are needed to better manage Federal funds to ensure claimed
expenditures are needed for administration of the disability program.

We are recommending that the Atlanta Regional Commissioner direct Georgia to:

   1. Work with the RO to determine what amount of the $2,319,677 difference can be
      supported by detailed records - traceable to supporting invoices, payments
      (checks), etc. – and direct the Georgia Department of Human Resources to
      reimburse SSA for any claimed costs, plus interest that cannot be supported.

   2. Reimburse SSA for the $340,873, plus interest, for funds drawn down in relation
      to the unsupported accounting transactions.

   3. Deobligate $209,861 for the invalid obligations in FY 1999 ($68,955) and
      FY 2000 ($140,906).

   4. Improve the internal controls over the accounting and reporting of cost claimed for
      the operations of the GA-DAS. Specifically, Georgia should ensure that cost
      claimed agree to accounting records and supporting documents of allowable costs
      incurred and that accounting transactions are recorded in the appropriate Federal
      FY, as well as unliquidated obligations are reviewed to ensure they are still valid.

   5. Implement internal controls at the DOL to prevent and detect improper draws of
      SSA funds.

   6. Improve internal controls to ensure that the GA-DAS does not exceed its
      consultative examination fee schedule.

   7. Revise the Forms SSA 4513 for the audit adjustments as shown in Appendix C.

SSA AND STATE COMMENTS
In response to Recommendation 1, the SSA RO commented it is not staffed or trained to
either obtain or determine what constitutes valid or acceptable supporting documentation
of DDS transactions and obligations. SSA stated it cannot agree with Recommendations
2, 3, 4, and 7 at this time because it is currently working with the State to determine what
actions to take. SSA agreed with Recommendations 5 and 6.

The State agreed with Recommendations 3 through 7 but disagreed with
Recommendations 1 and 2. The full text of SSA’s and the State’s comments is included
in Appendices D and E, respectively.



Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                           ii
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ......................................................................................................1

RESULTS OF REVIEW ...........................................................................................3

Unsupported Costs....................................................................................................3

Draw Downs Improperly Made ................................................................................. 6

Consultative Examination Fees Were Paid in Excess of GA-DAS Fee Rates........... 7

CONCLUSIONS AND RECOMMENDATIONS......................................................... 9

OTHER MATTERS ................................................................................................... 13


APPENDICES

APPENDIX A - Scope and Methodology
APPENDIX B - CE’s Greater than the GA-DAS Fee Schedule
APPENDIX C - Georgia Disability Adjudication Services Obligations Reported/Allowed
APPENDIX D - SSA Comments
APPENDIX E - State Comments
APPENDIX F - OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)
                                                                          Acronyms
Act                          Social Security Act
AIF                          Automation Investment Funds
ASAP                         Automated Standard Application for Payments System
CE                           Consultative Examination
CFR                          Code of Federal Regulations
DDS                          Disability Determination Services
DI                           Disability Insurance
Form SSA-872                 State Agency Obligational Authorization for Disability Programs
Form SSA-4513                State Agency Report of Obligations for SSA Disability Programs
FY                           Fiscal Year
GA-DAS                       Georgia Disability Adjudication Services
DHR                          Georgia Department of Human Resources
DOAS                         Georgia Department of Administrative Services
DOL                          Georgia Department of Labor
ITS                          Information Technology Systems
IWS/LAN                      Intelligent Workstation/Local Area Network
LAE                          Limitation on Administration Expenses
MER                          Medical Evidence of Records
OMB                          Office of Management and Budget
POMS                         Program Operations Manual System
RO                           Regional Office
State Agency                 State Agency or Other Responsible Jurisdiction
SSA                          Social Security Administration
SSI                          Supplemental Security Income
Treasury                     Department of the Treasury




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)
                                                                   Introduction
OBJECTIVES

The objectives of our audit of administrative costs claimed by the Georgia Disability
Adjudication Services (GA-DAS) were to:

•   evaluate internal controls over the accounting and reporting of administrative costs
    claimed, as well as the draw down of Social Security Administration (SSA) funds;

•   determine whether costs claimed on the State Agency Report of Obligations for
    SSA Disability Programs (Form SSA-4513) for the period October 1, 1997 through
    September 30, 2000, were allowable and properly allocated; and

•   determine if the aggregate of the SSA funds drawn down agreed with total
    expenditures for Fiscal Years (FY) 1998 through 2000.

BACKGROUND
The Disability Insurance (DI) program was established in 1956 under Title II of the
Social Security Act (Act). The DI program is designed to provide benefits to wage
earners and their families in the event the wage earner becomes disabled. The
Supplemental Security Income (SSI) program was created as a result of the Social
Security Amendments of 1972 with an effective date of January 1, 1974. SSI
(Title XVI of the Act) provides a nationally uniform program of income to financially
needy individuals who are aged, blind and/or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by a disability determination
service (DDS) in each State or other responsible jurisdiction, according to Federal
regulations. In carrying out its obligation, each DDS is responsible for determining
claimants’ disabilities and ensuring that adequate evidence is available to support its
determinations. To assist in making proper disability determinations, each State
Agency is authorized to purchase medical examinations, x-rays and laboratory tests on
a consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA pays the State Agency for 100 percent of allowable expenditures. Each year, SSA
approves DDSs’ budgets. Once approved, the State Agency may withdraw Federal
funds through the Department of the Treasury’s (Treasury) Automated Standard
Application for Payments System (ASAP) for this purpose. At the end of each quarter of
the Federal FY, each State Agency submits to SSA a Form SSA-4513 to report its
incurred cost categorized by program disbursements and unliquidated obligations.



Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                           1
Funds drawn from the Treasury to pay for program expenditures are to be drawn
according to Federal regulations1 and in accordance with intergovernmental
agreements entered into by Treasury and States under the authority of the Cash
Management Improvement Act of 1990 (CMIA).2 An advance or reimbursement for
costs under the program must be made according to the Office of Management and
Budget’s Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.

GA-DAS was a component within Department of Human Resources (DHR) until
July 1, 2001. GA-DAS then became a component of Department of Labor (DOL). SSA
authorized budgets totaling $136,968,021 for the FYs 1998 through 2000. Indirect costs
are allocated according to a cost agreement approved by the United States Department
of Health and Human Services.




1
    31 Code of Federal Regulations (CFR) § 205.
2
    Public Law No. 101-453.


Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                       2
                                                        Results of Review
Our audit of administrative costs claimed disclosed that accounting records did not
support the full costs claimed by the GA-DAS. We also noted that the funds drawn from
prior years were used to pay for current years’ expenditures. We attribute these
deficiencies, for the most part, to inadequacies in accounting controls and reporting
procedures. In addition, consultative examination fees were paid in excess of the
established GA-DAS fee schedules.

UNSUPPORTED COSTS
Federal regulations3 require that “The State will establish and maintain the records and
furnish the schedules, financial, cost, and other reports relating to the administration of
the disability programs as we [SSA] may require.” Also, the Program Operations
Manual System (POMS)4 requires valid obligations to be supported by
documents/records that describe the nature of the obligations and support the amounts
recorded.

We found that the State of Georgia could not support $2,870,411 in costs claimed on
the Forms SSA-4513 for the GA-DDS. We determined that there were three different
levels where costs claimed were not supported. First, the supporting accounting
transactions did not equal the amounts reported on the Form SSA-4513. Second,
individual accounting transactions lacked supporting detail needed to verify the costs
claimed. Lastly, claimed unliquidated obligations were no longer valid.

                            A comparative analysis of the disbursement costs showed
Accounting Records          discrepancies between the accounting records and cost
Were Less Than              claimed on the Form SSA-4513 in payroll, medical, and all
Claimed Costs               other nonpersonnel costs. The initial accounting records
                            we received from the DHR were incomplete. Of the
$136,758,160 claimed on the Form SSA-4513, the official accounting records only
supported $128,480,643. This was $8,277,517 less than the amount reported on the
Form SSA 4513 for the personnel, medical services and all other non-personnel costs.
The indirect costs agreed to the amounts reported on the Forms SSA-4513.

We then sought alternative sources of supporting data. Using payroll records from the
DHR Payroll Division and payment records for consultative examinations (CE) and
medical evidence of records (MER) from the Georgia Department of Administrative
Services (DOAS), we were able to find supporting data for $134,438,482 in costs for the
GA-DAS. A comparison is shown for the cost Georgia claimed on its Forms SSA 4513
to the supporting records in the following table.


3
    20 CFR §§ 404.1625(a) and 416.1025(a) “Records and Reports.”
4
    POMS DI 39506.200.


Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                              3
    Comparison of 4513 Reported Disbursements to Supporting
                           Records
                                                       All Other
                         Payroll       MER/CE        Nonpersonnel      Total
        FY 1998
 Reported on 4513      $23,437,239    $12,544,443       $4,929,269     $40,910,951
 Supporting Records     23,463,261     14,060,554        3,640,690     $41,164,505
 Difference                (26,022)    (1,516,111)       1,288,579      ($253,554)

        FY 1999
 Reported on 4513       25,012,120     13,686,145        5,536,389     $44,234,654
 Supporting Records     24,871,310     14,039,843        4,413,633     $43,324,786
 Difference                140,810      (353,698)        1,122,756       $909,868

        FY 2000
 Reported on 4513       24,783,893     15,019,537        5,236,870     $45,040,300
 Supporting Records     25,479,416     13,534,016        4,363,505     $43,376,937
 Difference              (695,523)      1,485,521          873,365      $1,663,363

      ALL YEARS
 Reported on 4513       73,233,252     41,250,125       15,702,528    $130,185,905
 Supporting Records     73,813,987     41,634,413       12,417,828    $127,866,228
 Difference             ($580,735)     ($384,288)       $3,284,700      $2,319,677

On November 12, 2003, DHR sent an additional file for our consideration. The file
contained FY 2000 data that allegedly supported the cost claimed on the Form
SSA-4513, as of June 30, 2002. DHR stated that if this file met our approval they would
produce similar files for the other FYs. This file differed from the two previous files sent
to us. The November 12th file’s total was more closely aligned with the total of the costs
claimed on the Form SSA-4513. The file also contained a portion that attempted to
reconcile the file to the costs claimed on the Form SSA-4513.

However, we did not find this additional file useful in verifying the claimed costs. The
file contained numerous transactions that would require a separate explanation and
testing to be acceptable as evidence supporting the claimed costs. Like the two
previous files, the file still contained only summary entries for the purchased medical
evidence that did not agree to the source detailed files we obtained from the DOAS as
discussed previously. We determined that to accept the most recent file we would have
to reopen our field work and perform extensive testing. We do not believe this is
feasible at this time.

DHR should work with SSA’s Regional Commissioner to determine what amount of the
$2,319,677 difference can be supported by detailed records - that are traceable to
supporting invoices, payments (checks), etc. - and direct DHR to reimburse SSA for any
claimed costs, plus interest, that can not be supported.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                           4
                            In addition to the difference between the supporting
    Individual              records and the amounts claimed on the Forms SSA-4513
    Transactions Lacked     in the previous chart, we found that DHR could not
    Supporting              provide us with sufficient documentation for individual
    Documentation           transactions. We were unable to substantiate all other
                            nonpersonnel disbursements amounting to $340,873 that
were claimed for FYs 1998 and 1999.

We selected a sample5 of 638 nonpersonnel transactions amounting to $7,718,596.51
to compare to the supporting documentation – checks and vendor invoices. GA-DAS
was unable to provide documentation for 88 of the 638 selected transactions totaling
$282,196. Accounting personnel could not provide us with a reason why the supporting
documentation was missing. We also found that documentation for another 3 of the 638
transactions totaling $58,677 was unacceptable. The three transactions were
unacceptable because the checks did not agree to vendor invoices nor did the
disbursements agree to the records supporting the Form SSA-4513.

As shown in the chart below, the transactions without support or unacceptable support
were contained in FYs 1998 and 1999 only. GA-DAS provided us with acceptable
supporting documentation for all of the disbursement transaction for FY 2000.


                                All Other Nonpersonnel Costs
                              Missing and Unacceptable Records
                                                            Number of               Dollar
                                                             Records            Amounts for
                 Disbursement                                without           Records without
        Fiscal      Records         Disbursement            Sufficient            Sufficient
         Year       Selected           Amount                Support               Support
       1998           181                $2,064,656             33                     $262,679
       1999           303                 3,211,364             58                       78,194
       2000           154                 2,442,576              0                            0
       Total          638                $7,718,596             91                     $340,873



As a result of the lack of acceptable supporting documentation, we are questioning
$340,873 as unsupported costs. SSA’s Regional Commissioner in Atlanta should
instruct the State of Georgia to repay SSA the $340,873 difference between the
amounts claimed on the Forms SSA-4513 and the supporting records.




5
 The sample contained both statistically valid selections and judgmentally selected transactions.
Results are presented based on actual items missing and not projections.


Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                    5
                           POMS require DDSs to review unliquidated obligations at least
Unliquidated               once each month6 and to cancel those amounts no longer valid.
Obligations Were           In addition, DDSs are required to provide narrative reports on the
Invalid                    status of unliquidated obligations when submitting the Form
                           SSA-4513.7

For the reporting quarter ending June 30, 2001, GA-DAS reported unliquidated
obligations of $68,955 and $140,906 for FY 1999 and FY 2000, respectively, for a total
of $209,861. Our discussions with GA-DAS fiscal staff disclosed that there were no
remaining unliquidated obligations. GA-DAS had not reviewed its unliquidated
obligations to assess whether they continued to be valid.

The SSA Regional Commissioner in Atlanta should withdraw the funding for the
$209,861 erroneously reported as unliquidated obligations. GA-DAS should deobligate
the erroneously reported unliquidated obligations and revise its Forms SSA-4513
accordingly.

DRAW DOWNS IMPROPERLY MADE
SSA authorizes the DDSs’ budgets for a given Federal FY through the State Agency
Obligational Authorization for Disability Programs (Form SSA-872). The Form
SSA-872 restricts the use of the funds to a specific Federal FY. Once approved, the
State withdraws specific years’ Federal funding through Treasury’s ASAP for this
purpose. At the end of each quarter of the Federal FY, each State Agency submits to
SSA a Form SSA-4513 to report its costs incurred categorized by program
disbursements and unliquidated obligations.

Funds are to be drawn in accordance with the intergovernmental agreements8 between
Treasury and the State of Georgia. These agreements call for Georgia to be
reimbursed using an estimated clearance method9 after issuing checks for the
expenses.

Administrative and fiscal control over the GA-DAS was officially transferred from DHR to
DOL on July 1, 2001. DOL assumed accounting responsibility for FY 2001 activity
starting with the last quarter of FY 2001. On August 3, 2001, DHR requested funds to
be transferred from DHR to DOL. At the time of the transfer, funding authority for
FYs 1999 and 2000 was still available.




6
  POMS DI 39506.203A.
7
  POMS DI 39506.203.
8
  31 CFR § 205.
9
  Under an estimated clearance method the State will request funds such that they are deposited in
accordance with an appropriate daily clearance pattern.


Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                     6
                       On January 4, 2002, the DOL drew down a total of $777,555 in
Prior Year Funds       SSA funds from FYs 1998, 1999, and 2000 Treasury accounts.
Applied to             The FY 1998 authority had not been transferred to DOL but
Current Years          remains with DHR. We asked the DOL accounting staff for the
                       expenditure documentation supporting the above draws. The
accounting staff was not able to furnish expenditure information demonstrating the need
for these draws. The accounting staff stated that the funds were used to pay current
obligations/expenditures in FY 2001 and 2002. A summary of the draw down activity by
FY is shown below.

                                    Inappropriate Draws Made
                                      During the Audit Period
                                      FY            AMOUNT
                                1998                      $36,316
                                AIF 1998                    5,608
                                2000                      709,631
                                ITS 2000                   26,000
                                     Total              $777,555

We informed DOL staff that the use of past years funds for current operations is in
contradiction with applicable Federal law.10 The DOL accounting staff person
responsible for making the draws stated that she had only recently started using ASAP
and had made errors. DOL needs to implement internal controls to prevent and detect
improper draws of SSA funds.

CONSULTATIVE EXAMINATION FEES WERE PAID IN EXCESS
OF GA-DAS FEE RATES

POMS11 provides for the DDS’ to develop consultative examination fee rate schedules.
Specifically, the POMS included the following statements:

          “The state will determine the rates of payment for medical or other services that
          are necessary to make a disability determination.”

          “The DDS will consider its fee schedule as a maximum payment schedule.”

Consultative           During our tests of consultative examination fees we identified
Examination Paid       $789,596 in payments to providers which exceeded consultative
in Excess of the       fee rates provided to us by GA-DAS. We were informed that
Authorized Rate        some of these higher fees were paid to hospitals that had
                       negotiated fee rate agreements with the State's vocational
rehabilitation agency. The following table provides a few examples to illustrate the
variance in fees that were paid for the same service.
10
     31 United States Code §§ 1501(a) and 1502(a).
11
     POMS DI-39545.210.


Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                              7
                        COMPARISONS OF GA-DAS FEE SCHEDULE
                             TO AMOUNTS PAID TO PROVIDER
    Expenditure                                         GA-DAS Amount
    Charged to   Voucher                                Fee Sch. Paid to  Amount    %
    Fiscal Year  Number           Provider Name         Amount   Provider Overpaid Over
       1999     111557-01 Phenix Regional Hospital        $45.00  $59.30   $14.30   32%
       2000     165042    Crisp Regional Hospital         $54.00 $127.53   $73.53 136%
       1998     276962-01 Satilla Regional Medical Ctr.   $32.00  $57.48   $25.48   80%
       1998     001357 01 Tift General Hospital           $44.00  $76.23   $32.23   73%

The payments in excess of the GA-DAS fee schedule varied considerably between
providers for the same current procedure terminology (CPT) codes. For example in
FY 2000, for CPT code 94060 the GA-DAS fee schedule set a maximum payment
amount of $58.56 yet actual payments were made ranging from $58.91 to $467.25.
Appendix B pages 1 and 2 provide lists of the CPT codes where we found excess
payments and more detail about the ranges of payments.

The DOL Provider Standards Specialist stated that a decision was made to use hospital
providers in those instances where claimants lived in rural areas because seeking other
providers would have caused unwarranted travel hardship on the applicant. We found
that in practice there was no limitation on using the hospital rates. For example, we
found 15 hospitals in the City of Atlanta were receiving the higher negotiated rates. The
frequency that hospital rates were used indicated that using hospital providers became
common practice instead an exception basis.

In the 1990’s, the RO informally endorsed a method allowing consultative examination
fees to be paid in excess of the established fee schedules. Since the SSA RO never
discouraged this practice, it has continued. We identified 22 CPT codes for FYs 1999
and 15 CPT codes for FY 2000 with payments in excess of GA-DAS’ fee schedules.
Due to administrative problems we were unable to quantify the excess payments for FY
1998. The amounts paid in excess of the fee schedules were $394,804 and $394,792
for FY 1999 and FY 2000, respectively. If GA-DAS had adhered to its existing fee
schedule, payments would have been reduced by a total of $789,596. GA-DAS needs
to adhere to its fee schedules.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                          8
                                                              Conclusions and
                                                             Recommendations
The parent agencies within Georgia responsible for financial services for GA-DAS need
to improve and/or institute controls which provide adequate accounting, reporting,
expending and record-keeping. Further improvements are needed to better manage
Federal funds to ensure their expenditure when needed for administration of the
Disability program. We recommend the Atlanta Regional Commissioner direct Georgia
to:

      1. Work with SSA to determine what amount of the $2,319,677 difference can be
         supported by detailed records - traceable to supporting invoices, payments
         (checks), etc. - and direct DHR to reimburse SSA for any claimed costs, plus
         interest that can not be supported.

      2. Reimburse SSA for the $340,873, plus interest, for funds drawn down in relation
         to the unsupported accounting transactions.

      3. Deobligate $209,861 for the invalid obligations in FY 1999 ($68,955) and
         FY 2000 ($140,906).

      4. Improve the internal controls over the accounting and reporting of costs claimed
         for the operations of GA-DAS. Specifically, Georgia should ensure that costs
         claimed agree to accounting records and supporting documents of allowable
         costs incurred and that accounting transactions are recorded in the appropriate
         Federal FY, as well as unliquidated obligations are reviewed to ensure they are
         still valid.

      5. Implement internal controls at DOL to prevent and detect improper draws of SSA
         funds.

      6. Improve internal controls to ensure that GA-DAS does not exceed its consultative
         examination fee schedule.

      7. Revise the Forms SSA-4513 for the audit adjustments as shown in Appendix C.

SSA, STATE COMMENTS AND OIG RESPONSE

In response to Recommendation 1, SSA12 commented it is not staffed or trained to
either obtain or determine what constitutes valid or acceptable supporting
documentation of DDS transactions and obligations. SSA stated it cannot agree with

12
     The use of the term SSA in this section of the report refers to the Atlanta Regional Office.


Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                    9
Recommendations 2, 3, 4, and 7 at this time because it is currently working with the
State to determine what actions to take. SSA agreed with Recommendations 5 and 6.

The State agreed with Recommendations 3 through 7 but disagreed with
Recommendations 1 and 2. The full text of SSA’s and the State’s comments is included
in Appendices D and E, respectively.

UNSUPPORTED COSTS – Recommendations 1, 2, 3, and 4

Our audit disclosed that claimed costs, totaling $2,870,411, could not be supported. We
identified three areas where there was a lack of support. The three areas were (1) the
accounting records’ total was less than the costs claimed; (2) individual accounting
transactions could not be supported with documentary evidence; and (3) unliquidated
obligations were not supported by open orders. We recommended improvement in
internal controls to help ensure that costs can be reconciled to the appropriate accounts
and FYs.

SSA Comments

SSA agreed if claimed costs cannot be adequately supported, then DHR should
reimburse SSA. SSA stated that it could not concur with all of our recommendations at
this time. In its December 29, 2003 comments, SSA stated it is not staffed or trained to
either obtain or determine what constitutes valid or acceptable supporting
documentation of DDS fiscal transactions and obligations. Nevertheless, SSA stated it
was working with DOL and the DDS to determine whether claimed costs/obligations
were supported.

State Comments

The State’s January 5, 2004 comments, which include a response from DHR, indicate it
disputes the recommendations and the basis for the findings related to
Recommendations 1 and 2. DHR stated that it would have been able to find support if
the audit staff had continued to remain on-site and work with them to reconcile the data
to its accounting records. DHR also commented that all of the items selected for review
were provided for inspection; but, the documentation was lost while in transit back to the
records center.

OIG Response

We believe DHR has been given reasonable time to provide a reconciliation and
evidence of its claimed costs. We recognize that DHR produced three data files.
However, those data files were not sufficient documentation13 to support claimed costs.
As to DHR’s other comment -- that they provided us with supporting documentation for

13
  Federal Regulations, 20 CFR §§ 404.1625 and 416.1025 require DDSs to “…establish and maintain
the records and furnish the schedules, financial, cost and other reports relating to the administration of
the disability programs as we [SSA] require.”


Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                             10
our sample of costs claimed -- our records show DHR has not produced supporting
documentation for the questioned sample items to prove it incurred the identified costs.
We are concerned that SSA believes its staff lacks the expertise to oversee the fiscal
operations related to the DDS. We believe SSA’s responsibility for oversight of the
GA-DAS fiscal operations is a critical management function. The RO is the action
official for resolving any issues in these recommendations.

DRAW DOWNS IMPROPERLY MADE – Recommendation 5

We identified instances where the DOL inappropriately drew down SSA funds from a
past FY to pay for the expenses of the current FY. The funding SSA provides for the
DDS operations are restricted to the obligations occurring in that FY.

SSA Comments

SSA agreed the DOL needs to implement internal controls to prevent and detect
improper draws of SSA funds. However, SSA stated that the issue of the questioned
draw downs should be with DHR and not DOL as indicated in the audit report.

State Comments

The State did not comment on this finding.

OIG Response

The OIG position remains unchanged. We reviewed our work papers to confirm that it
was in fact the DOL that made and could not support the questioned draws.

CONSULTATIVE EXAMINATIONS PAID IN EXCESS – Recommendation 6

Our audit identified instances of payments to medical providers for CEs in excess of the
State’s fee schedule. In these instances individually negotiated rates were used for
hospitals instead of the fee schedule. The amounts paid for the same service varied
considerably from hospital to hospital.

SSA Comments

SSA commented that it has been working with the State to review and update its fee
schedules since 2002. SSA further stated that a new fee schedule, based on an
approved Medicare fee schedule, was implemented in May 2003.

State Comments

DOL stated it had implemented a new fee schedule, based on Medicare fees, in May
2003.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                       11
OIG Response

SSA and DOL actions addressed our recommendation.

MAKE REPORTING ADJUSTMENTS TO FYS 1998, 1999 AND 2000 –
Recommendation 7

SSA and the State are working together to make a final determination about the
transactions in question.

SSA and State comments can be seen in their entirety in Appendices D and E,
respectively.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                 12
                                                                    Other Matters
REQUIRED FINANCIAL REPORTS ARE LATE

DHR, which prepared the Form SSA-4513 for GA-DAS prior to June 30, 2001, were
often late in meeting reporting requirements.14 We found that of the 31 reports received
for FYs 1998 through 2000, 17 were more then 30 days past the due date. DOL has
not submitted any Forms SSA 4513 for FYs 1999 and 2000, as of September 2003.

Failure to provide required reports on a timely basis impacts the ability of the RO and
the Office of Disability to oversee the status of Federal funding provided to the GA-DAS.




14
   POMS DI 39506.202 - the original (SSA-4513) with signature should be sent to SSA’s Central Office no
later than the 30th day after the close of the quarter.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                    13
                                      Appendices
Appendix A – Scope and Methodology

Appendix B – CEs Greater than the GA-DAS Fee Schedule

Appendix C – GA-DAS Obligations Reported/Allowed

Appendix D – SSA Comments

Appendix E – State Comments

Appendix F – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)
                                                                      Appendix A

Scope and Methodology
To accomplish our objectives, we obtained evidence to evaluate recorded financial
transactions in terms of their allowability under Office and Management and Budget’s
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments and
appropriateness as defined by the Social Security Administration’s (SSA) Program
Operations Manual System (POMS).

We reviewed the administrative costs totaling $136,968,021 reported by both parent
agencies for the Federal Fiscal Years (FY) ended September 30, 1998 through 2000.
Our audit coverage included any subsequent financial activity affecting these FYs as of
June 30, 2001.

We also:

•   reviewed applicable Federal laws and regulations, pertinent parts of the POMS
    DI 39500 DDS Fiscal and Administrative Management and other instructions
    pertaining to administrative costs incurred by the Georgia Disability Adjudication
    Services (GA-DAS) and the draw down of SSA funds covered under the Cash
    Management Improvement Act;

•   interviewed staff at the GA-DAS, Department of Human Resources (DHR),
    Department of Labor (DOL), Georgia State Auditors, and the RO;

•   reviewed GA-DAS general policies and procedures;

•   evaluated and tested internal controls regarding accounting and financial reporting,
    as well as cash management activities;

•   examined the administrative expenditures (personnel, medical service, indirect, and
    all other nonpersonnel costs) incurred by GA-DAS and claimed by DHR and DOL for
    the period October 1, 1997 through September 30, 2000;

•   compared the official State records to the administrative costs reported by GA-DAS
    to SSA on the State Agency Report of Obligations for SSA Disability Programs
    (Form SSA-4513) for the period October 1, 1997 through September 30, 2000; and

•   compared the amount of SSA funds drawn for support of program operations to the
    allowable expenditures reported on the Form SSA-4513.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                         A-1
To meet the objectives of our audit, we assessed the reliability of computer processed
data produced by the DHR for the GA-DAS. As a result of our audit work described in
the section titled “Unsupported Costs,” we determined that there were problems with the
accuracy of the data produced by the accounting system. We used alternative sources
of data as described in the “Unsupported Costs” section of the report to complete the
audit. We completed tests to determine the completeness, accuracy, and validity of the
data and were therefore able to meet the objectives of the audit and to reach our
conclusions.

We performed work in the Atlanta, Georgia area at GA-DAS, DHR, and DOL, as well as
at SSA Headquarters in Baltimore, Maryland.

We tested documents supporting the costs claimed by GA-DAS for the period
October 1, 1997 through September 30, 2000, as reported to SSA on the Form
SSA-4513 as of the quarter ending June 30, 2001. We traced transactions to the
source documentation for sampled items. The sample sizes were as shown in the chart
below.


                                                           FY        FY     FY
            Sample Sizes                                 1998      1999   2000
            All Other Nonpersonnel Costs                  181       303    154
            Medical Evidence of Records                   100       100    100
            Consultative Examinations                     100       100    100
            Total                                         381       503    354

Our field work was conducted during the period from January 2001 through July 2002.
This audit was conducted in accordance with generally accepted government auditing
standards.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                   A-2
                                                                                                                               Appendix B

                                 FY 1999 CE's GREATER THAN THE GA-DAS FEE SCHEDULE
                                                                                                                            Records
                                                                                    GA-DAS Fee                              Overpaid    Total Amount
       CPT                                                                            Schedule          Range of Excess      By CPT      Overpaid by
       Code                           CPT Description                             Maximum Amount           Payments           Code        CPT Code
                                                                                                       Lowest    Highest
  1   71020    Chest X-ray, Front and Lateral Views, with CT ratio measurement                $41.00    $41.60    $181.83       2,369      $69,036.26
  2   72040    Cervical Spine x-ray, AP and Lateral views                                      45.00     45.90     199.98         579       20,511.57
  3   72050    Cervical Spine X-ray, min. 4 views                                              51.03     54.00     198.20          20        1,113.81
  4   72100    Lumbosacral Spine X-ray, AP and Laterial views only                             44.00     44.61     293.00       2,495      106,623.04
  5   72110    Lumbosacral Spine X-ray, Complete                                               51.75     54.46     234.66         104        5,625.26
  6   82040    Albumin, serum                                                                   7.00      7.93      51.03          24          342.46
  7   82250    Bilirubin, blood, total or direct                                                8.00     10.96     265.05          50        1,354.01
  8   93000    EKG, resting with interpretation, report, and tracings                          35.00     37.54     126.48         255        5,296.91
  9   94060    Simple Spirometry, B & A Brochodilators                                         58.75     58.81     351.16       1,774      104,680.55
 10   A7005    X-ray of left Shoulder                                                          32.00     50.72      98.67           4          170.34
 11   A7006    X-ray of Right Shoulder                                                         32.00     32.18     172.36         219        8,314.79
 12   A7011    X-ray of Left Elbow, AP and Lateral                                             32.00     35.34     141.00          35        1,216.23
 13   A7016    X-ray of Right Wrist, AP and Lateral                                            29.00     30.50     158.71          95        3,499.56
 14   A7020    X-ray of Right Hand, two views only                                             31.00     31.13     185.78         197        6,042.56
 15   A7021    X-ray of Left Hand, two views only                                              31.00     31.13      99.58         137        3,865.26
 16   A7026    X-ray of Right Hip, complete, minimum 2 views                                   44.00     44.07     197.16         230        7,136.14
 17   A7027    X-ray of Left Hip, complete, minimum 2 views                                    44.00     45.05     129.52         168        5,015.76
 18   A7030    X-ray of Right Knee, AP and Lateral                                             32.00     32.33     189.28         724       23,235.23
 19   A7031    X-ray of Left Knee, AP and Lateral                                              32.00     32.33     176.28         618       21,129.67
 20   AP020    Interpretation & Report, x-ray of Right Hand, two views only                    37.38     39.96      50.72           2           15.92
 21   AP030    Interpretation & Report, x-ray of Right knee, AP and Lateral                    27.41     31.96      57.88           4           55.20
 22   P2100    Interpretation & Report, Lumbosacral Spine, AP and Lateral views                29.02     30.00     102.49         113          523.91
                                                                                  Total Records and
                                                                                  Amounts Overpaid                             10,216     $394,804.44




Audit of Administrative Costs Claimed for Georgia DAS (A-15-01-11021)                                                                        B-1
                CE's FY 2000 DETERMINED TO BE GREATER THAN THE GA-DAS FEE SCHEDULE
                                                                                                                                      Total
                                                                                                                        Records     Amount
                                                                                 GA-DAS Fee                             Overpaid    Overpaid
      CPT                                                                          Schedule         Range of Excess      By CPT      by CPT
      Code                           CPT Description                           Maximum Amount          Payments           Code        Code
                                                                                                   Lowest    Highest
1    71020   Chest X-ray, Front and Lateral Views, with CT ratio measurement              $41.00    $41.76    $286.00       2501    $90,180.61
2    72050   Cervical Spine X-ray, min. 4 views                                            54.00     61.91     207.24         11        780.74
3    72100   Lumbosacral Spine X-ray, AP and Laterial views only                           44.00     45.90     320.00       2403    121,411.36
4    73120   Hand exam, Bilateral, 2 views                                                 31.00     55.30      55.30          1         24.30
5    80054   Comprehensive Metabolic Panel                                                 20.00     20.13     203.19        264     13,021.73
6    82250   Bilirubin, blood, total or direct                                              8.00      8.17      86.01         58        999.38
7    82565   Creatinine, serum                                                              7.00      7.08      44.28        135      1,448.35
8    94060   Simple Spirometry, B & A Brochodilators                                       58.56     58.91     467.25       1728    110,483.44
9    94720   Carbon monoxide diffusing capacity, any method                                65.00     65.12     269.87        179      8,477.52
10   A7007   X-ray of Left Shoulder, complete, minimum of 2 views                          32.63     36.32     184.59        196      9,077.92
11   A7021   X-ray of Left Hand, two views only                                            31.00     32.92     167.31        141      5,525.65
12   A7026   X-ray of Right Hip, complete, minimum 2 views                                 44.00     45.65     186.48        203      8,219.04
13   A7031   X-ray of Left Knee, AP and Lateral                                            32.00     32.45     168.70        611     23,571.97
14   A8001   Single Venipuncture Specimen Collection                                        4.00      4.05      28.61        395      1,444.98
             Review of medical records; completion & return of Medical
15   A9019                                                                                 25.00     30.00    140.00           3       125.00
             Assessment form
                                                                               Total Records and
                                                                                                                           8,829   $394,791.99
                                                                               Amounts Overpaid




Audit of Administrative Costs Claimed for Georgia DAS (A-15-01-11021)                                                                    B-2
                                                                                                                                                                   Appendix C

  GEORGIA DISABILITY ADJUDICATION SERVICES
  OBLIGATIONS REPORTED/ALLOWED FOR FY 1998
                                                                                          Fiscal Year (FY) 1998
                                                                                                                                                                                              Total
                                                              Disbursements                                                            Unliquidated Obligations
                                                                                                                                                                                           Obligations
                                    Personnel       Medical         Indirect       All Other      Total      Personnel       Medical         Indirect        All Other       Total
As Reported by State Agency

Personnel                           $23,437,239                                                $23,437,239                                                               $     0       $23,437,239

Medical Evidence of Record
   (MERS)                                         $ 1,854,116                                  $ 1,854,116                                                               $     0       $ 1,854,116
Consultative Examination (CES)                    $10,690,327                                  $10,690,327                                                               $     0       $10,690,327

Indirect                                                        $2,179,103                     $ 2,179,103                                                               $     0       $ 2,179,103

All Other                                                                        $4,929,269    $ 4,929,269                                                               $     0       $ 4,929,269

   Total Claimed by State Agency $23,437,239 $12,544,443        $2,179,103       $4,929,269    $43,090,054 $       0     $       0       $      0        $        0      $     0       $43,090,054
1. To adjust 4513 report to reflect
amounts as reported on official
state accounting records
                                    $ 26,022 $ 1,516,111        $              0 $(1,288,579) $   253,554                                                                $     0       $    253,554
Subtotal: Official State
Accounting Records                  $23,463,261 $14,060,554     $ 2,179,103 $ 3,640,690 $43,343,608                                                                      $     0       $43,343,608

2. To adjust for unsupported non-
personnel expenditures deemed
unallowable.                                                                     $ (262,679) $ (262,679)                                                                 $     0       $ (262,679)



Adjusted Claims                     $23,453,261 $14,060,554     $ 2,179,103 $ 3,378,011 $43,080,929 $              0     $       0       $      0        $        0      $     0       $ 43,080,929




  Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                                                                                                   C-1
  GEORGIA DISABILITY ADJUDICATION SERVICES
  OBLIGATIONS REPORTED/ALLOWED FOR FY 1999
                                                                                         Fiscal Year (FY) 1999
                                                                                                                                                                                                      Total
                                                               Disbursements                                                            Unliquidated Obligations
                                                                                                                                                                                                   Obligations
                                     Personnel       Medical       Indirect       All Other      Total      Personnel         Medical         Indirect        All Other          Total
As Reported by State Agency

Personnel                            $25,012,120                                              $25,012,120 $     4,412                                                        $         4,412   $25,016,532

Medical Evidence of Record
   (MERS)                                          $ 2,095,438                                $ 2,095,438                                                                    $            0    $ 2,095,438
Consultative Examination (CES)                     $11,590,707                                $11,590,707                                                                    $            0    $11,590,707

Indirect                                                         $2,208,619                   $2,208,619                                                                     $            0    $ 2,208,619

All Other                                                                     $5,536,389      $5,536,389                                                  $         64,543   $        68,955   $ 5,600,932

   Total Claimed by State Agency $25,012,120 $13,686,145 $2,208,619 $5,536,389 $46,443,273 $                        4,412 $      0        $    0          $         64,543 $          68,955   $46,512,228
1. To adjust 4513 report to reflect
amounts as reported on official
state accounting records
                                    $ (140,810) $    353,698 $        0 $(1,122,756) $ (909,868)                                                                             $        0        $     (909,868)
Subtotal: Official State
Accounting Records                  $24,871,310 $14,039,843 $ 2,208,619 $ 4,413,633 $45,533,405 $               4,412                                     $         64,543 $           68,955 $     45,602,360

2. To adjust for unsupported non-
personnel expenditures deemed
unallowable.                                                                  $     (78,194) $   (78,194)                                                                    $     0           $      (78,194)

3. To deobligate those amounts
reported as unliquidated
obligations determined as invalid.                                                                          $   (4,412)                                   $      (64,543) $       (68,955)     $       (68,955)



Adjusted Claims                      $24,871,310 $ 14,039,843 $ 2,208,619 $ 4,335,439 $45,455,211 $             0         $      0        $        0      $     0            $    0            $    45,455,211




  Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                                                                                                                    C-2
  GEORGIA DISABILITY ADJUDICATION SERVICES
  OBLIGATIONS REPORTED/ALLOWED FOR FY 2000
                                                                                             Fiscal Year (FY) 2000
                                                                                                                                                                                                    Total
                                                                Disbursements                                                              Unliquidated Obligations
                                                                                                                                                                                                 Obligations
                                          Personnel     Medical         Indirect       All Other      Total      Personnel       Medical         Indirect        All Other       Total
As Reported by State Agency

Personnel                             $24,783,893                                                  $24,783,893                                                               $         0     $24,783,893

Medical Evidence of Record
   (MERS)                                             $ 2,424,926                                  $ 2,424,926                                                               $         0     $ 2,424,926
Consultative Examination (CES)                        $12,594,611                                  $12,594,611                                                               $         0     $12,594,611

Indirect                                                            $2,184,534                     $2,184,534                                                                $          0    $2,184,534

All Other                                                                            $5,236,870    $5,236,870                                                $      140,906 $     140,906    $ 5,377,776

  Total Claimed by State Agency
                                      $24,783,893     $15,019,537   $2,184,534       $5,236,870    $47,224,834 $       0     $       0       $     0         $      140,906 $     140,906    $47,365,740
1. To adjust 4513 report to reflect
amounts as reported on official
state accounting records
                                      $     695,523   $ (1,485,521) $              0 $ (873,365) $(1,633,363)                                                                $      0        $ (1,663,363)
Subtotal: Official State
Accounting Records                    $25,479,416     $13,534,016   $ 2,184,534 $ 4,363,505 $45,561,471                                                      $      140,906 $      140,906   $45,702,377



2. To deobligate those amounts
reported as unliquidated
obligations determined as invalid.                                                                                                                           $    (140,906) $    (140,906)   $ $ (140,906)


Adjusted Claims                       $25,479,416     $13,534,016   $ 2,184,534 $ 4,363,505 $45,561,471 $              0     $       0       $      0        $        0      $     0         $    45,561,471




  Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                                                                                                                 C-3
                                                                   Appendix D
Agency Comments




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)
                                   SOCIAL SECURITY

MEMORANDUM

Date:      December 29, 2003                                             Refer To: K Killam 2-5727

To:        Assistant Inspector General for Audit

From:      Regional Commissioner
           Atlanta

Subject: Administrative Costs Claimed for the Georgia Disability Determination Services
            (A-15-01-11021) – Response to Your Memorandum (Undated)

           Thank you for the opportunity to comment on the validity of the facts and
           reasonableness of the recommendations presented in your report of the audit (A-
           15-01-11021) on the Administrative Costs Claimed by the Georgia Disability
           Determination Services (DDS).

           We believe that the OIG audit was detailed and thorough. We are concerned
           about the findings that the Georgia Department of Labor (DOL) and the
           Department of Human Resources (DHR) did not have adequate internal controls
           over the accounting, reporting, expending and recordkeeping of administrative
           costs. We are also concerned about the conclusion that further improvements are
           needed to better manage Federal funds to ensure claimed expenditures are
           necessary for administration of the disability program. The GA DOL and DHR do
           not concur with several of the conclusions and recommendations of the audit. We
           are diligently working with them to determine whether the audit conclusions and
           recommendations are appropriate to ensure that all necessary changes are made.

          1. Work with the Regional Office to determine what amount of the $2,319,677
             difference can be supported by detailed records – traceable to supporting
             invoices, payment (checks), etc. – and direct DHR to reimburse SSA for
             any claimed costs, plus interest that cannot be supported.

             We agree that if claimed costs cannot be adequately supported, then DHR
             should reimburse SSA. However, the Regional Office is not staffed or trained to
             either obtain or determine what constitutes valid or acceptable supporting
             documentation of DDS fiscal transactions and obligations. The expertise
             required to perform this type of fiscal accounting function regarding a DDS or its
             Parent Agency does not currently reside within the Regional Office.

           2. Reimburse SSA for the $340,873, plus interest, for funds drawn down in
              relation to the unsupported accounting transactions.
      Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                D-1
         We cannot concur with this recommendation at this time. The GA DOL and the
         DDS are not in agreement with this finding or recommendation. We are
         currently working with the DOL and the DDS to determine whether the funds
         drawn down were properly supported.

     3. De-obligate $209,861 for the invalid obligations in FY 1999 ($68,955) and
        FY 2000 (140,906).

         We cannot concur with this recommendation at this time. The GA DOL and the
         DDS are not in agreement with this finding or recommendation. We are
         currently working with the DOL and the DDS to determine whether the
         obligations made in FY 1999 and FY 2000 were invalid.

     4. Improve the internal controls over the accounting and reporting of costs
        claimed for the operations of the GA-DDS. Specifically, Georgia should
        ensure that costs claimed agree to accounting records and supporting
        documents of allowable costs incurred and that accounting transactions
        are recorded in the appropriate Federal FY, as well as unliquidated
        obligations are reviewed to ensure they are still valid.

         We do not completely concur with this recommendation. In the section of the
         audit results (page 9) titled, “Required Financial Reports are Late”, the report
         states that “DOL has not submitted any forms SSA 4513 for FYs 1999 and
         2000.” We disagree that this was the responsibility of DOL, as they did not
         become the Parent Agency of the DDS until July 1, 2001. Accordingly, they do
         not have the supporting documentation for obligations incurred while the DDS
         was under DHR. We do agree, however, that DHR needs to submit updated
         SSA 4513s for those years not yet closed out during which they provided
         oversight to the DDS. SSA is currently working with the GA DDS, the DOL and
         DHR to obtain these reports.

     5. Implement internal controls at the DOL to prevent and detect improper
        draws of SSA funds.

         We agree that internal controls should be in place to prevent and detect
         improper draws of SSA funds. However, the problems in this area that were
         sited in the audit occurred with DHR and not DOL. We are working closely with
         the GA DDS and the DOL to make sure that their internal control system
         ensures that all draws of SSA funds are adequately supported, properly
         allocated to the Federal DDS program, drawn from the correct fiscal year, and
         properly classified on the SSA 4513.

     6. Implement internal controls to ensure that the GA-DDS does not exceed
        its Consultative Examination fee schedule.

         We agree that better internal controls are needed with regard to consultative
         examination fee schedules. However, the language in the section entitled
         “Consultative Examination were Paid in Excess of GA-DAS Fee Rates” needs
         to be revised to reflect that the Regional Office has, in fact, been working with
Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                       D-2
         DDS management since 2002 to review and update their fee schedules to
         ensure compliance with POMS. To this end, a new fee schedule based on an
         approved Medicare fee schedule was implemented in the GA DDS effective
         May 2003. The audit report needs to reflect this fact.

     7. Revise the Forms SSA 4513 for the audit adjustments as shown in
        Appendix C.

         Changes to the SSA 4513 cannot be made until the GA DDS, the DOL and the
         OIG have arrived at a final determination of transactions for the years in
         question. If supporting documentation cannot be presented for the
         transactions, then SSA will instruct the GA DDS to repay the difference
         between the amounts claimed on the SSA 4513 and the supporting records.

      Please contact me if you have any questions or concerns before our final
      comments are made. Staff questions should be referred to Karen Killam at
      (404) 562-5727 or Barbara Hites at (404) 562-5719.


                                                    /s/
                                              Paul D. Barnes

      cc: Mr. Bobby Pack




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)               D-3
                                                                   Appendix E

State Comments




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)
                       Georgia Department of Labor
                                    Rehabilitation Services
       148 Andrew Young International Boulevard, N.E. · Suite 510 · Atlanta, Georgia 30303-1751
           (404) 232-3910 · (404) 232-3912 fax · (404) 232-3911 TTY · www.vocrehabga.org


MICHAEL L. THURMOND
    COMMISSIONER

                                        January 5, 2004

Mr. Steven L. Schaeffer
Assistant Inspector General for Audit
Social Security Administration
4L2 Operations Building
6400 Security Boulevard
Baltimore, Maryland 21235-0001

Dear Mr. Schaeffer:

        Thank you for the opportunity to respond to the draft report entitled “Administrative
Costs claimed for the Georgia Disability Adjudication Services” (A-15-01-11021). This report
contains your conclusions and recommendations from the audit of financial records for the
period October 1, 1997 through September 30, 2000. As you know, law transferred the Georgia
Disability Adjudication Services (DAS) as part of the Division of Rehabilitation Services from
the Department of Human Resources (DHR) to the Department of Labor (DOL) on July 1, 2001,
so the review period relates to DHR records. Therefore this response incorporates the response
from DHR for those items for which it is responsible.

   The responses are listed in the order of the recommendations listed in the report’s Draft
   Executive Summary. DHR provided the following response to items one and two:

“The Department of Human Resources welcomes inspection of the financial records by the
Atlanta Regional Commissioner. We believe the general ledger with related work paper
adjustments does support the expenditure reports filed with the Social Security Administration.
As explained to the reviewers while they were on site and after they left the site, the State of
Georgia implemented a new accounting system for use beginning in State Fiscal Year 2000. The
records produced by the new system are not of the same format as those produced by the legacy
system. We provided records from the legacy system, as well as from the general ledger and the
modules that posted to the general ledger of the new system. We believe the reviewers would
have been able to find ample support for the forms 4513 had they remained on site and worked
more closely with us to accomplish the reconciliation. We worked cooperatively with a member
of the review team to do this but that person has since left employment of the Social Security
Administration.
                            An Equal Opportunity Employer/Program
Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                                  E-1
Mr. Schaeffer
Page 2
January 5, 2004


With regard to the sample records that were not found, all of the items selected for review were
provided for inspection. The reviewers examined them and released them for return to the
State’s record center. The documents were lost by the carrier that was contracted to deliver the
documents to the Records Center. When the reviewers asked to see them a second time, they
were not available. We believe since the reviewers had seen the actual documentation on the
first review of the documents, that the expenditures associated with them should not be
disallowed.”


DOL responses to items three through seven are:

      •   Item 3 – We will work with DHR to resolve this issue and file revised reports.
      •   Items 4 and 5 – We are continuing to review and improve our accounting processes and
          internal controls. We welcome any specific suggestions for improvement that you may
          have.
      •   Item 6 – During the course of this review a committee with representatives from Georgia
          DAS, the Vocational Rehabilitation Program and Rehabilitation Services State Office
          met to develop the Rehabilitation Services Fee Schedule based on federal
          Medicaid/Medicare guidelines. We implemented this improved fee schedule in May
          2003 along with financial controls to prevent overpayments of consultative examination
          fees.
      •   Item 7 – This issue will be addressed by DHR after resolving the issues regarding items
          one and two.


Please let me know if you would like to discuss these responses by calling John Williams at
404/232- 3577 or me.

                                              Sincerely,

                                              /s/

                                              Bobby Pack
                                              Acting Assistant Commissioner

BP:dpv

cc:       Michael Thurmond, Commissioner, Georgia Department of Labor
          Maria Greene, Acting Commissioner, Georgia Department of Human Resources
          Barbara Hites, Disability Program Administrator, Atlanta Region SSA
          Lisa Earls, Assistant Commissioner, Georgia Department of Labor, Financial Services
          John Williams, Acting Director, Georgia Department of Labor, Finance

Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)                            E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Frederick C. Nordhoff, Director, Financial Audit Division, (410) 966-6676
   Lance Chilcoat, Audit Manager, (410) 965-9743



Acknowledgments

In addition to those named above:

   Sigmund Wisowaty Jr., Senior Auditor, Auditor-in-Charge
   Cliff McMillan, Senior Auditor
   Steve Sachs, Senior Auditor
   Joseph Borowy, Auditor
   Ellen Justice, Auditor
   Donna Parris, Auditor
   Sandra Westfall, Senior Program Analyst
   Carol Ann Frost, Systems Analyst
   Brennan Kraje, Statistician
   Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-01-11021.




Administrative Costs Claimed for the Georgia DAS (A-15-01-11021)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.
                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
